U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 6, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Erica Y. Bryant, et al. v. United States of America,
S.Ct. No. 19-982

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 3,
2020, and placed on the docket on February 5, 2020. The government's response is due on
March 6, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 6, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0982
BRYANT, ERICA Y., ET AL.
USA

JOSEPH L. ANDERSON
THE PANGIA LAW GROUP
1717 N STREET, NW
WASHINGTON, DC 20036
202-955-6450
J. EDWARD BELL, II
BELL LEGAL GROUP
219 RIDGE STREET
GEORGETOWN, SC 29440
843-546-2408
JAY T. BREAKSTONE
PARKER WAICHMAN LLP
SIX HARBOR PARK DRIVE
PORT WASHINGTON, NY 11050
516-466-6500
JBREAKSTONE@YOURLAWYER.COM
ROBERT B. JACKSON, IV
260 PEACHTREE STREET, NW
SUITE 2200
ATLANTA, GA 30303
404-313-2039
DONALD D.J. STACK
260 PEACHTREE STREET, NW
SUITE 1200
ATLANTA, GA 30303
404-692-7504

ALTON C. TODD
THE LAW FIRM OF ALTON C. TODD
312 SOUTH FRIENDSWOOD DRIVE
FRIENDSWOOD, TX 77546
281-992-8633

